Chairman Harkin, Ranking Member Enzi, and Members of the Committee:
Thank you for inviting me here today to discuss the Pension Benefit Guaranty Corporation’s
(PBGC) oversight and management of its Single and Multiemployer Pension Insurance
programs. PBGC protects the pensions of approximately 44 million workers and retirees in more
than 27,500 private defined benefit pension plans. Under Title IV of the Employee Retirement
Income Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of
participants in covered private defined benefit pension plans. To accomplish its mission, PBGC
relies extensively on the use of contractors and on information technology. Internal controls
over these operations are essential to ensure the confidentiality, integrity, and availability of
critical data while reducing the risk of errors, fraud, and other illegal acts.

IN SUMMARY

My testimony today is essentially “good news” testimony. In some areas, focused attention by
PBGC leadership has already resulted in effective corrective action; for example, during the past
year, PBGC implemented OIG’s specific recommendations to enhance privacy processes and
also made additional improvements with the stated goal of making PBGC a model for handling
sensitive information. In other areas, much remains to be done and full implementation of
corrective action may take years. Sustained management attention and oversight will be needed
if PBGC is to fully implement its current plans to improve the effectiveness and integrity of its
contracting practices. While PBGC has developed corrective action plans to address serious
weaknesses in information technology security, execution of the plans is scheduled to take
between three and five years and many critical details of the plans have yet to be developed.
During the interim, careful review by those with oversight responsibility for PBGC will be
needed to ensure that corrective action plans stay on track to completion.

BACKGROUND
 PBGC receives no funds from general tax revenues; instead PBGC is financed by insurance
premiums paid by companies that sponsor defined benefit pension plans, investment income, and
assets from terminated plans. PBGC has been in a deficit position (where current and future
commitments to participants exceed resources) for a number of years. Inadequate minimum
contributions, inadequate insurance premiums, employer shift from defined benefit pension plans
to defined contribution pension plans, and insufficient funding of terminated plans are factors
contributing to the deficit. Between the end of fiscal years (FY) 2008 and 2009, the deficit in
PBGC’s single-employer insurance program doubled in size from $10.7 billion to $21.1 billion.
In FY 2010, the single-employer program’s net position declined by $.52 billion, increasing the
program’s deficit to $21.59 billion.
PBGC currently pays monthly retirement benefits to over 800,000 retirees in 4,150 plans.
Including those who have not yet retired and participants in multiemployer plans receiving
financial assistance, PBGC is responsible for the current and future pensions of more than 1.4
million people.




                                                                                                 1
THE PBGC OFFICE OF INSPECTOR GENERAL
The PBGC Office of Inspector General provides an independent and objective voice that helps
the Congress, the Board of Directors, and PBGC protect the pension benefits of American
workers. Like all federal Offices of Inspector General, the PBGC Office of Inspector General is
charged with providing leadership and recommending policies and activities designed to prevent
and detect fraud, waste, abuse, and mismanagement; conducting and supervising independent
audits and investigations; and recommending policies to promote sound economy, efficiency,
and effectiveness. As Inspector General, I report directly to the PBGC Board of Directors,
through the PBGC Board Chair; this reporting relationship has supported OIG’s ability to audit
and investigate the aspects of PBGC operations that pose the highest risks for fraud, waste,
abuse, and mismanagement.
During the past two years, my office has conducted numerous independent audits and
investigations pertaining to agency programs and operations, resulting in significant
improvements and changes that ultimately serve to protect America’s pensions. Many of the
reports have been quite critical of PBGC, in some instances placing significant stress on the
relationship between the Office of Inspector General and the Corporation. Nevertheless, the
PBGC Board of Directors and PBGC have responded appropriately and professionally to
implement many of the improvements recommended by the Office of Inspector General.
Our ongoing audit work addresses some of the most critical issues facing PBGC. We are in the
process of applying for law enforcement authority and have begun the process of enhancing the
nature and sophistication of the investigations we conduct. Recent cases accepted by United
States Attorney’s Offices include significant issues such as complex multiemployer pension plan
fraud. We are performing some of our investigations in concert with other agencies, including
the Department of Labor OIG Office of Labor Racketeering and Fraud, and other federal, state,
and local law enforcement agencies.

Over the last 5 years, we have issued 47 reports addressing PBGC’s oversight of its programs
and made 348 recommendations for improvement or recovery of questioned costs. Although
PBGC has responded positively to many of our recommendations, 176 recommendations,
contained in 40 different reports, remain open as of today.

THE STATUS OF PBGC ACTIONS TO IMPLEMENT OIG RECOMMENDATIONS

The following are examples of some of PBGC’s recent accomplishments in responding to OIG
recommendations, as well as areas where additional oversight and management attention are
needed.


PBGC took action to protect sensitive and personally identifiable information.
Last spring my office reported concerns with PBGC’s privacy program. By law, PBGC has an
affirmative responsibility to protect the confidentiality, integrity, and availability of personally
identifiable information. PBGC’s mission requires the collection, storage and transmittal of a
great deal of personally identifiable information, such as the names, social security numbers,
and earning histories of workers in trusteed plans. In March 2010, we reported that PBGC’s

                                                                                                       2
Privacy Office did not properly monitor its privacy processes for quality and compliance.
Further, PBGC’s process for reporting personally identifiable information events was inaccurate
and unverifiable. Technical controls (e.g., encryption of laptop computers) required
strengthening.
To its credit, the Corporation took immediate measures to begin addressing reported concerns.
Some actions directly addressed OIG’s recommendations; for example, specific guidance and
procedures were developed for privacy staff to follow in reporting to the United States Computer
Emergency Readiness Team (US-CERT) security incidents involving the disclosure of
personally identifiable information. PBGC’s actions went well beyond the specific
recommendations included in OIG’s report. PBGC reexamined its privacy program with the
stated intention of making PBGC a model for handling sensitive information and surveyed other
federal agencies to identify best practices. The Privacy Office then developed and implemented
key guidance, including detailed recordkeeping instructions and a requirement that all incidents
involving personally identifiable information be reported to US-CERT within one hour of
discovery. The guidance was widely disseminated via email to all PBGC employees and
contractors with PBGC email accounts, as well as to the contract service providers that handle or
access personally identifiable information at contractor facilities. PBGC followed up by giving
in-person training on privacy protection standards and reporting requirements to those PBGC
employees and contractors (e.g., staff at Field Benefit Administration sites) who frequently
handle sensitive information.
Earlier this fall, we reviewed PBGC’s corrective actions related to PBGC’s privacy program.
Our testing showed that our recommendations in this important area had been effectively
implemented. The Corporation’s positive reaction to OIG’s findings increased the likelihood
that PBGC will be able to properly protect the personally identifiable information and other
sensitive data with which it has been entrusted.

PBGC initiated actions to protect its securities on loan to other investors.
Securities lending is a small but important component of PBGC’s overall investment program
and is intended to obtain incremental investment return. As of September 30, 2010, PBGC had
about $21 billion in securities available for lending; of this amount, about $5.7 billion in
securities was actually on loan. OIG’s review of PBGC’s Securities Lending Program disclosed
the general absence of written guidance at all levels and little documentation of the procedures
used to implement, monitor, and oversee the program. Further, we reported that PBGC was
unable to independently validate that the gross and net revenues earned through the program
were correctly calculated by the bank with custody of PBGC’s loaned assets. Upon issuance of
our report, representatives of the PBGC Board of Directors and PBGC leadership responded
promptly and corrective actions were initiated.

PBGC is making progress in the implementation of the sixteen recommendations included in
OIG’s report. For example, PBGC has developed and is testing a method to validate the amount
of revenue earned through securities lending. That is, PBGC will soon be capable of “checking”
the calculations of its custodian to ensure the Corporation receives the full amount of earnings to
which it is entitled. Reducing PBGC’s dependence on the custodial bank is an important step.
Further, PBGC is in the process of implementing a number of internal controls intended to

                                                                                                   3
provide effective oversight and monitoring of the securities lending program. OIG continues to
work diligently to support PBGC in its ongoing efforts to develop needed controls over this
complex investment practice.

At the time of our review, written policies regarding the securities lending program were
virtually non-existent. PBGC has begun the arduous process of drafting written policy guidance
regarding the establishment, investment objectives, risk tolerance, and measurement standards
and operations of the securities lending program. We have worked closely with PBGC,
reviewing several iterations of PBGC’s draft documents and offering suggestions and edits.
Because the PBGC Board has the authority and responsibility for establishing and overseeing the
investment policy and its implementation, the securities lending guidelines proposed in our
report should be submitted to the Board and Board Representatives for review. Our
recommendations for guidance will not be considered complete until this has been done.

PBGC is working toward protection of the Corporation’s ability to carry out its mission
through the use of information technology.

OIG has focused much of its recent audit work on the serious weaknesses in PBGC’s
information technology practices that pose increasing and substantial risks to PBGC’s ability to
carry out its mission. For the past two years, PBGC’s annual financial statements audit included
an adverse opinion on internal control, based in part on systemic information technology security
control weaknesses. A report on PBGC compliance with the Federal Information Security
Management Act described PBGC’s information systems as “a series of stovepipe solutions built
upon unplanned and poorly integrated heterogeneous technologies with varying levels of
obsolescence.”

The operations of PBGC are heavily dependent on information technology. During the summer
of 2008, shortly after I became Inspector General at PBGC, I learned that PBGC frequently
dismissed OIG’s concerns about information security. The auditors and investigators in my
office worked hard to demonstrate the need to enhance attention to this crucial area. In the fall of
2009, we gave PBGC senior leadership a restricted disclosure presentation on the results of
penetration testing conducted to discover weaknesses and to exploit discovered vulnerabilities.
After our presentation, new leadership was assigned to enhance PBGC’s security posture and to
develop a long-term corrective action plan to address long-standing issues. Importantly, PBGC
committed to build and manage security controls to an appropriate National Institute of
Standards and Technology (NIST) standard. Further, PBGC made the decision to enter into an
interagency agreement with the Bureau of Public Debt to leverage its expertise in security
control. PBGC is beginning to actively address serious information technology issues and the
substantial risks they pose for PBGC’s ability to carry out its mission.

The Corporation has embarked on a coherent approach to resolving and correcting fundamental
information technology weaknesses. PBGC has developed and is implementing multi-year
corrective action plans to address security issues at the root cause level. The corrective action
plans are an important first step that reflects the priority that PBGC leadership places on this
critical issue. However, PBGC’s realistic assessment is that a timeframe of between three and


                                                                                                    4
five years is needed to achieve the objectives of the PBGC’s plans. According to PBGC’s
schedule, corrective action for many of OIG’s recommendations will not be complete until 2015.
Current PBGC leadership has been straightforward in acknowledging the challenges it faces in
revitalizing PBGC’s information technology processes. Implementing the corrective action
plans will be difficult and time-consuming. Some of PBGC’s challenges, like the continuous
stream of new and ever-changing federal requirements, are shared by all federal entities. Others
are unique to PBGC. For example, PBGC still has an acting Chief Information Officer, PBGC
system security expertise is still maturing, and trust-building is still a work-in-process for the
office that manages PBGC’s information technology. Strong leadership and effective, persistent
oversight, from within the organization as well as from the outside, will be needed if PBGC is to
ensure the security of the information technology systems that support the PBGC mission.

PBGC must ensure the integrity of the contracting process.
PBGC relies heavily on the services of contractors to carry out its operations, a factor that makes
procurement and contracting a significant PBGC activity. PBGC reports spending about two-
thirds of its annual operating budget through contracts. Historically, nearly two of every three
people who do the work of PBGC are contract employees, as shown by the following table.
Thus, ensuring that contractors provide the goods and services for which they are paid is critical
to PBGC’s ability to meet its mission.

                                     2000
                                                                                              1768
                                     1800
                                                                                     1639
                                     1600
          Number of PBGC Employees




                                                                                                      1502
                                                                   1342    1331                                1365
                                     1400
                                                          1248
                                     1200

                                     1000           919                                                      865
                                              791 775                     776               822      811
                                          763           773      754              784
                                      800

                                      600

                                      400

                                      200
     Federal   0
     Employees                              2000   2001   2002    2003     2004   2005       2006     2007    2009
     Contract                                                          Fiscal Year
     Employees

OIG continues to devote a significant portion of its resources to audits, investigations, and
reviews of PBGC’s procurement and contracting activities. Forty-three open audit
recommendations relate to PBGC’s contracting practices; some have remained open for more
than five years without effective resolution. Many of the most critical issues we are currently

                                                                                                                      5
addressing have been caused or exacerbated by poor contract management. Our ongoing
monitoring also shows a continued need for close management attention in this area.

While PBGC places tremendous reliance on its contractors, the Corporation has experienced
serious and costly problems with the quality and utility of some of the contract deliverables for
which it paid. Many of these issues could have been avoided through effective contract
management, including careful contract monitoring, acceptance of deliverables, and evaluation
of contractor performance. PBGC senior leadership also needs to reinforce the idea that
allowing a contractor to provide a deliverable of a lesser quality than called for in a contract
constitutes a form of waste or abuse, if not outright fraud.

PBGC has recently committed to taking a number of important actions to improve the
effectiveness of its contracting activities. For example:

       Our ongoing reviews of two of the largest single-employer program claims in PBGC’s
       history show that a PBGC contractor did not exercise due professional care in performing
       audits of plan assets and of plan participant information. PBGC’s oversight of the
       contractor was ineffective in identifying obvious and material errors and omissions in the
       work. To its credit, PBGC leadership is taking action to address the issues, including:
       (1) contracting for a Certified Public Accounting (CPA) firm to re-perform the work
       related to these two plan sponsors’ pension plans; (2) developing a plan for how
       contractor work will be monitored, evaluated, and accepted; and (3) reviewing plan asset
       evaluations completed over the last two years, with the objective of using identified
       deficiencies to train reviewers and staff and to update procedures.

       In response to our audit recommendations, PBGC developed a set of Standard Operating
       Procedures (SOP) to guide procurement activities and establish basic internal controls
       over the contracting process. Based on our review of the document, the SOPs form a
       useful “first step” toward improving procurement effectiveness. However, PBGC
       leadership needs to develop a method to determine the degree to which those with
       responsibility for contracting are complying with the new procedures and to make any
       necessary corrections or adjustments as needed.

       During the course of a recent evaluation, we became aware of a reduction in the
       minimum qualifications for contract staff at some of PBGC’s remote sites. There was no
       indication that PBGC sought reduced rates when staff with lesser qualifications were
       provided or that PBGC confirmed the contractors’ assertions that fully qualified staff
       could not be retained. Based on our discussions with PBGC management, the
       Corporation solicited a contractor to provide a thorough and objective assessment of
       PBGC practices associated with the acquisition, planning and contract administration for
       the remote site contracts. The resulting report, issued on October 29, 2010, confirmed our
       initial observations and made fourteen recommendations for improvement in PBGC’s
       contract modification process. PBGC leadership has committed to implementing the
       report’s recommendations.




                                                                                                    6
       OIG has repeatedly expressed the need for PBGC to be more vigilant about the integrity
       and effectiveness of its contracting processes. A special team led by the Chief Financial
       Officer and the General Counsel was established to assist the Procurement Department in
       responding to open audit recommendations and in enhancing PBGC’s ability to contract
       effectively and in compliance with relevant guidance. As a result, many long-standing
       recommendations have been closed and others are nearing completion. Additionally,
       plans have been made to review the actions of the contracting officer’s technical
       representatives and the technical monitors who provide day-to-day monitoring and
       supervision of PBGC’s contractors. PBGC leadership should ensure that these reviews
       are carried out carefully and that necessary corrective actions are taken if the reviews
       show a lack of compliance with established contracting practices.

PBGC should prepare strategically for the possibility of a workload surge.

In response to a request from the Chairman of the Senate Special Committee on Aging, OIG
reviewed PBGC’s planning efforts to strategically prepare for the potential influx of pension
plans. In our report, issued last month, we explained our conclusion that PBGC needs to develop
specific strategies and tactics to be used in the event of a serious workload surge.

The recent global economic downturn caused financial hardships for many businesses in a
number of different sectors, which directly impact PBGC’s operations and forecasting. The risk
of numerous pension plans simultaneously terminating could cause a domino effect requiring
PBGC to assume a large number of participants in a short period of time. Conversely, if the
economy is strong, PBGC may only assume twenty or forty thousand participants in a given year
(see the chart below).



 300,000
                Participants Trusteed by Fiscal Year
                                                265,238
 250,000
                                   197,779                                200,897
 200,000                     179,403
                                          139,342
 150,000

                       90,960                                                   99,000
 100,000
           55,573                                               58,434
                                                       44,708
  50,000         27,192                                              21,171

      -
            1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                   Fiscal Year


                                                                                               7
The number of plans that PBGC assumes on a year-to-year basis fluctuates based on numerous
factors, mainly the economic strength of the country. PBGC experienced an influx of pension
plans from FY 2002-2005, when PBGC became responsible for paying more than 700,000
participants from plans that were terminated and trusteed, primarily from the airline and steel
industries (see the chart below). PBGC is experiencing one of the busiest periods in its history.
In FY 2009, PBGC terminated and trusteed 129 plans with more than 200,000 participants.
During FY 2010, PBGC assumed responsibility for 99,000 additional workers and retirees in 163
failed plans.



                  Plans Trusteed by PBGC by Fiscal Year
    200
                                           178
    180
                                                                                  163
    160                              152
           134                144                 138
    140                                                                     129
                                                               115
    120                 103
                  99
    100
                                                         86
     80                                                               74

     60
     40
     20
      0
          1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                     Fiscal Year

The Government Accountability Office (GAO) lists PBGC on its High Risk list, in part, because
PBGC continues to be “exposed to the threat of terminations of large underfunded pension plans
sponsored by financially weak firms.” PBGC acknowledged in its FY 2010 Annual Report
issued last month that no reasonable estimate could be made of 2011 terminations.

The future is difficult to predict. The uncertainty about 2011 termination, when considered
together with the exposure noted by GAO, provides sufficient reason for PBGC to expand and
enhance its planning for possible workload surges.

To date, the Corporation has generally kept its planning activities simplistic and linear. PBGC
executive leadership explained their belief that a “playbook” approach, explicitly detailing the
steps to be taken, was impractical. To their view, because a workload surge could take many
varied and unpredictable forms, the only practical option was reliance on the Corporation’s

                                                                                                   8
ability to develop and implement an “ad hoc” approach, in the event that a workload surge
materialized. Based on our review, we identified a number of specific activities the Corporation
could take to enhance its readiness in the event of a workload surge. These activities could be
best implemented as part of an overall strategic plan, an approach that we consider to be a best
practice. However, even in the absence of a comprehensive Workload Surge Strategy Plan,
implementing the recommendations in our report would help position the Corporation to deal
with a significant workload surge.

The Chief Operating Officer responded to our report, noting PBGC’s conclusion that the risk of a
large influx of plans is much lower now than anticipated in FY 2009. Further, his response stated
management’s belief that the resources needed to address the report’s recommendations would
be better used in other higher priority areas. Accordingly, instead of implementing OIG’s
recommendations as written, PBGC proposed the creation of a Large Influx Working Group
(LIWG) Planning Document as a basis for alternative actions to address the recommendations.
We will need to review the planning document PBGC proposes to draft before we can determine
whether PBGC’s proposed approach adequately addresses the report’s findings.

CONCLUSION

We recognize PBGC’s progress in addressing numerous high priority areas and support its
efforts to address our related recommendations. Considering the organization-wide impact of the
information technology security issues and the weaknesses in contracting practices, PBGC
leadership and those with oversight responsibility should target their oversight efforts on the
effective execution of the corrective action plans that have been developed. Additionally, for
critical weaknesses that cannot be addressed in the near future, interim measures should be
developed and adopted to minimize the associated risks. OIG will continue our monitoring
activities until PBGC demonstrates that it has been fully responsive to our recommendations. In
addition, we plan future audit work in the areas of highest risk to validate the effectiveness of
PBGC corrective actions.

Mr. Chairman, that concludes my remarks. I would be happy to answer any questions that you
or other members of the committee may have.




                                                                                                   9
